No. __________________

In the Supreme Court of the United States
October Term, 2019

JOSE RICARDO MORALES-MERCADO, PETITIONER,
V.

UNITED STATES OF AMERICA
PETITION FOR WRIT OF CERTIORARI
TO THE
UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT
CERTIFICATE OF SERVICE
The undersigned, an attorney, a member of the Bar of this Court, certifies
that pursuant to Rule 29.3, Supreme Court Rules, she served the within Motion for Leave to Proceed In Forma Pauperis and Petition for Writ of Certiorari
on Counsel for the United States, and for other parties required to be served,
by enclosing a copy of each in an envelope, with first-class postage prepaid,
addressed to their post office addresses:
The Honorable Jeffrey B. Wall
Acting Solicitor General of the United States
U.S. Department of Justice
950 Pennsylvania Avenue, Room 5614
Washington, D.C. 20530
(202) 514-2201

and depositing same in a United States mailbox at San Antonio, Texas, on August 17, 2020 Counsel further certifies that all parties required to be served
have been served.

s/ Laura G. Greenberg
LAURA G. GREENBERG
Assistant Federal Public Defender
Western District of Texas
727 E. César E. Chávez Blvd., B-207
San Antonio, Texas 78206-1205
(210) 472-6700
(210) 472-4454 (Fax)
Counsel of Record for Petitioner

